<html>
<title> - AN OVERVIEW OF THE FISCAL YEAR 2014 BUDGET PROPOSAL AT THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY (NIST)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          AN OVERVIEW OF THE FISCAL YEAR 2014 BUDGET PROPOSAL

                 AT THE NATIONAL INSTITUTE OF STANDARDS

                         AND TECHNOLOGY (NIST)
=======================================================================



                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, APRIL 18, 2013

                               __________

                           Serial No. 113-21

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-560                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                       Subcommittee on Technology

                  HON. THOMAS MASSIE, Kentucky, Chair
RANDY HULTGREN, Illinois             FREDERICA S. WILSON, Florida
DAVID SCHWEIKERT, Arizona            SCOTT PETERS, California
JIM BRIDENSTINE, Oklahoma            DEREK KILMER, Washington
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Thursday, April 18, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Thomas Massie, Chairman, Subcommittee 
  on Technology, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Frederica S. Wilson, Ranking Minority 
  Member, Subcommittee on Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Patrick Gallagher, Under Secretary of Commerce for 
  Standards and Technology; Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................    11
    Written Statement............................................    14

Discussion.......................................................    27


                  AN OVERVIEW OF THE FISCAL YEAR 2014

                         BUDGET PROPOSAL AT THE

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY (NIST)

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                  House of Representatives,
                                 Subcommittee on Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Thomas 
Massie [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 80560.001

[GRAPHIC] [TIFF OMITTED] 80560.002

[GRAPHIC] [TIFF OMITTED] 80560.003

[GRAPHIC] [TIFF OMITTED] 80560.004

[GRAPHIC] [TIFF OMITTED] 80560.005

[GRAPHIC] [TIFF OMITTED] 80560.006

    Chairman Massie. The Subcommittee on Technology will come 
to order.
    Good morning. Welcome to today's hearing entitled ``An 
Overview of the Fiscal Year 2014 Budget Proposal at the 
National Institute of Standards and Technology.'' In front of 
you are packets containing the written testimony, biographies, 
and truth-and-testimony disclosures for today's witness panel. 
I now recognize myself for five minutes for an opening 
statement.
    Today, we examine one portion of the President's budget 
proposal--the Fiscal Year 2014 budget request for NIST. Last 
week, I had the opportunity to visit NIST's campus in 
Gaithersburg, Maryland, and to see a sample of ongoing research 
activities. In my time there, I was able to visit the Net-Zero 
Test Facility, the Center for Nanoscale Science and Technology, 
and the Center for Neutron Research. Dr. Gallagher, I want to 
thank you and let you know that your staff took very good care 
of me and my staff as well. And their enthusiasm for NIST's 
work was apparent throughout my tour.
    The Fiscal Year 2014 budget request for NIST totals $928 
million, an increase of $177.5 million or almost 24 percent 
from the Fiscal Year 2012 enacted level. Now, this Committee 
has a long, bipartisan record of support for NIST and its 
contributions to research and development, but I think I need 
to repeat that figure. The President has requested a 24 percent 
increase for NIST in Fiscal Year 2014. That type of increase in 
a time of decreasing budgets will be very difficult to achieve 
and require significant changes in other areas.
    The requested increases would be devoted in large part to 
bolster advanced manufacturing initiatives by NIST, as well as 
in areas such as cybersecurity, disaster resilience, forensic 
science, and broadband communications.
    We are here today to learn more about the justification for 
this request and I am appreciative of the opportunity to learn 
more about how Fiscal Year 2014 funds would be prioritized by 
NIST. I thank our witness, Dr. Gallagher, for his time today.
    I now recognize the Ranking Member, the gentlelady from 
Florida, Ms. Wilson, for an opening statement.
    [The prepared statement of Mr. Massie follows:]

              Prepared Statement of Chairman Thomas Massie

    Good Morning. I would like to welcome everyone to today's hearing. 
Today we will examine the fiscal year 2014 budget request for the 
National Institute of Standards and Technology (NIST).
    I would like to thank Dr. Gallagher for appearing before us today.
    Today, we examine one portion of the President's budget proposal, 
the fiscal year 2014 budget request for NIST. Last week I had the 
opportunity to visit NIST's campus in Gaithersburg, Maryland, and to 
see a sample of ongoing research activities. In my time there, I was 
able to visit the Net Zero Test Facility, the Center for Nanoscale 
Science and Technology, and the Center for Neutron Research. Dr. 
Gallagher, I want you to know that your staff took good care of me, and 
their enthusiasm for NIST's work was apparent throughout my tour.
    The fiscal year 2014 budget request for NIST totals $928 million, 
an increase of $177.5 million or almost 24 percent from the fiscal year 
2012 enacted level.
    Now this Committee has a long, bipartisan record of support for 
NIST and its contributions to research and development. But I think I 
need to repeat that figure. The President has requested a 24 percent 
increase for NIST in fiscal year 2014. That type of increase in a time 
of decreasing budgets will be very difficult to achieve, and require 
significant changes in other areas.
    The requested increases would be devoted in large part to bolster 
advanced manufacturing initiatives by NIST, as well as in areas such as 
cybersecurity, disaster resilience, forensic science, and broadband 
communications.
    We are here today to learn more about the justification for this 
request, and I am appreciative of the opportunity to learn more about 
how fiscal year 2014 funds would be prioritized by NIST. I thank our 
witness, Dr. Gallagher, for his time today.

    Ms. Wilson. Thank you, Chairman Massie, for holding this 
morning's hearing to examine the Fiscal Year 2014 budget 
request for the National Institute of Standards and Technology. 
I would also like to thank Dr. Gallagher for testifying today 
and for his leadership in NIST. It is good to see you again, 
Dr. Gallagher.
    NIST is an economic engine for this Nation. For more than 
100 years the Institute's broad and deep technical expertise 
has advanced measurement science, standards, and technological 
innovation, strengthening our manufacturing sector and boosting 
innovation. In this time of painfully high unemployment, we 
need NIST. We need NIST's expertise more than ever.
    And this time in which developing nations are taking the 
lead not only in assembling products, but also inventing 
products, we need strategic investment in research, 
development, and education. I am pleased that the President's 
budget recognizes the importance of NIST and gives the agency a 
prominent role in the Administration's efforts to revitalize 
American manufacturing.
    The Administration's budget includes a number of 
initiatives that can strengthen and reinforce the competitive 
position of the United States. For instance, the Advanced 
Manufacturing Technology Consortia program that will create 
public-private partnerships to address technical barriers that 
are stopping the growth of advanced manufacturing here at home. 
It simply makes sense to leverage Federal resources to bring 
companies together to solve common challenges. It bolsters 
innovation and creates jobs. And that is what we should be 
concerned about: jobs, jobs, jobs.
    The President's proposal also advances emerging fields such 
as biomanufacturing and nanomanufacturing. This research will 
provide a foundation for new and existing companies to 
flourish, producing high-quality, high-paying jobs that will 
remain with us over the long haul. Whether we like it or not, 
the truth is that most of our competitors are putting 
significant and targeted resources towards helping businesses, 
small and large, accelerate the commercialization of innovative 
technologies. They are doing it. I don't think we can afford to 
just stand by and watch these companies set up shop somewhere 
else. I don't think we can afford to just watch as these 
technologies and jobs take hold somewhere else.
    We need to support the Administration's proposal for a 
National Network for Manufacturing Innovation. This proposal is 
intended to help bridge the gap from research and development 
to commercialization through proof-of-concept activities and 
direct collaboration with industry. It is also intended to 
build up the skills of our workforce, preparing students for 
the manufacturing jobs of the future. I often worry about the 
class of 2013, high school and college. While some questions 
remain about these manufacturing institutes, I believe the 
concept has merit and I am looking forward to learning more 
about it today.
    I am also interested in learning more about how the current 
budget request will advance NIST's effort to make our 
communities more resilient to natural disasters. I was born and 
raised in South Florida. I have seen my fair share of the 
devastation of severe weather. While we cannot stop hurricanes, 
tornadoes, or earthquakes from happening, we can and must do 
all that we can to make sure that our communities have the 
capacity and the tools they need to respond and recover from 
these events.
    Mr. Chairman and I look forward to working with you and our 
colleagues to ensure that NIST has the resources it needs to 
fulfill its crucial role of promoting innovation, increasing 
competitiveness, and enhancing our security. And I yield back 
the balance of my time, two seconds.
    [The prepared statement of Ms. Wilson follows:]

   Prepared Statement of Ranking Minority Member Frederica S. Wilson

    Thank you, Chairman Massie, for holding this morning's hearing to 
examine the fiscal year 2014 budget request for the National Institute 
of Standards and Technology. I'd also like to thank Dr. Gallagher for 
testifying today and for his leadership at NIST. It's good to see you 
again.
    NIST is an economic engine for this nation. For more than 100 
years, the institute's broad and deep technical expertise has advanced 
measurement science, standards, and technological innovation--
strengthening our manufacturing sector and boosting innovation.
    In this time of painfully high unemployment, we need NIST's 
expertise more than ever. In this time in which developing nations are 
taking the lead not only in assembling products but also in inventing 
products, we need strategic investments in research, development, and 
education.
    I am pleased that the President's budget recognizes the importance 
of NIST and gives the agency a prominent role in the Administration's 
efforts to revitalize American manufacturing.
    The Administration's budget includes a number of initiatives that 
can strengthen and reinforce the competitive position of the United 
States. For instance, the Advanced Manufacturing Technology Consortia 
program will create public-private partnerships to address technical 
barriers that are stopping the growth of advanced manufacturing here at 
home. It simply makes sense to leverage federal resources to bring 
companies together to solve common challenges. It boosts innovation and 
creates jobs.
    The President's proposal also advances emerging fields such as 
biomanufacturing and nanomanufacturing. This research will provide a 
foundation for new and existing companies to flourish-producing high-
quality, high-paying jobs that will remain with us over the long-haul.
    Whether we like it or not, the truth is, that most of our 
competitors are putting significant and targeted resources towards 
helping businesses--small and large--accelerate the commercialization 
of innovative technologies. I don't think we can afford to just stand 
by and watch those companies setup shop somewhere else. I don't think 
we can afford to just watch as those technologies and jobs take hold 
somewhere else. We need to support the Administration's proposal for a 
National Network for Manufacturing Innovation.
    This proposal is intended to help bridge the gap from research and 
development to commercialization through proof-of-concept activities 
and direct collaboration with industry. It is also intended to build up 
the skills of our workforce--preparing students for the manufacturing 
jobs of the future. While some questions remain about these 
manufacturing institutes, I believe the concept has merit and I am 
looking forward to learning more about it today.
    I'm also interested in learning more about how the current budget 
request will advance NIST's efforts to make our communities more 
resilient to natural disasters. Born and raised in South Florida, I 
have seen my fair share of the devastation of severe weather. While we 
cannot stop hurricanes, tornadoes, or earthquakes from happening, we 
can and must do all that we can to make sure that our communities have 
the capacity and the tools they need to respond and recover from these 
events.
    Mr. Chairman, thank you again for holding this hearing and I look 
forward to working with you and our colleagues to ensure that NIST has 
the resources it needs to fulfill its crucial role: promoting 
innovation, increasing our competitiveness, and enhancing our security.

    Chairman Massie. Thank you, Ms. Wilson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness. Our 
witness is Dr. Patrick Gallagher, the Under Secretary of 
Commerce for Standards and Technology and the Director of the 
National Institute of Standards and Technology. Dr. Gallagher 
is the 14th Director of NIST and the first to hold the position 
of Under Secretary of Commerce. He received his Ph.D. in 
physics at the University of Pittsburgh. Thanks again to our 
witness for being here this morning.
    As our witness should know, spoken testimony is limited to 
five minutes after which the Members of the Committee will have 
five minutes each task questions. I now recognize Dr. Gallagher 
to present his testimony.

          TESTIMONY OF THE HONORABLE PATRICK GALLAGHER

                UNDER SECRETARY OF COMMERCE FOR

                   STANDARDS AND TECHNOLOGY,

              AND DIRECTOR, NATIONAL INSTITUTE OF

                    STANDARDS AND TECHNOLOGY

    Dr. Gallagher. Chairman Massie, thank you very much for 
this opportunity to be here today, and Ranking Member Wilson, 
it is great to see both of you. And since this is my first 
official event in front of the Subcommittee, let me 
congratulate both of you on your leadership positions and to 
say for the record that I am looking forward to working with 
both of you.
    Today, I would like to discuss and give you a quick 
overview of the President's Fiscal Year 2014 budget request for 
NIST. This budget reflects the important role that NIST plays 
as part of the President's ``Plan to Make America a Magnet for 
Jobs by Investing in Manufacturing.''
    From transforming communities across the country into 
global centers of manufacturing through the establishment of 
the National Network for Manufacturing Innovation to 
strengthening supply chains through MEP to supporting 
innovative manufacturing technologies by investing in the R&D 
of the NIST laboratories, the proposed Fiscal Year 2014 budget 
reflects NIST's role in the Administration's efforts to 
strengthen manufacturing through critical investments in 
research and development.
    NIST's mission is to promote innovation and industrial 
competitiveness through advancing measurement science, 
standards, and technology and it is well-aligned with the 
priority goals articulated by the President. The NIST budget is 
comprised of three discretionary spending accounts, as well as 
a mandatory proposal.
    Mr. Chairman, the President's discretionary funding request 
for $928.3 million reflects an increase of 177.5 million above 
Fiscal Year 2012 enacted levels, and more than half of the 
proposed increased funding would be focused on advanced 
manufacturing research both at NIST laboratories and through 
industry-led consortia. This budget was carefully crafted to 
address pressing needs for standards and measurement work 
principally in emerging technology areas and to provide the 
seed funding to encourage industry and academia to come 
together to address common technology problems that are too 
large for individual institutions to tackle by itself.
    The request for the laboratory programs of $693.7 million 
recognizes the important role NIST labs play in advancing 
innovation. The request is an increase of 126.7 million from 
the Fiscal Year 2012 enacted level. Within the request, current 
Administration priority areas targeted for budget increases 
include advanced manufacturing, cybersecurity, healthcare 
information technology, disaster resilience, forensics, 
advanced communications, and the NIST Centers of Excellence 
Program. The request will help ensure that NIST laboratory 
research, facilities, and service programs continue to work at 
the cutting edge of science and will assist U.S. industry as 
well as the broader science and engineering communities with 
the measurements, data, and technologies they need to further 
innovate and make sure the United States remains industrially 
competitive.
    The request for the NIST Industrial Technology Services 
account is $174.5 million representing an increase of $46.1 
from the Fiscal Year 2012 enacted level. The account includes 
$153.1 million for the Hollings Manufacturing Extension 
Partnership program, or MEP, and $25 million for the Advanced 
Manufacturing Technology Consortia program, or AMTech. AMTech 
will establish industry-led consortia to identify and 
prioritize research projects supporting long-term industrial 
research needs.
    The Construction of Research Facilities request is $60 
million. This is an increase of about $5 million. The increased 
funding will allow NIST to reduce the backlog of maintenance 
projects on its facilities and to improve the overall condition 
of them. This construction request also provides for the first 
year of a major project to renovate Wing 5 of the Building 1 
laboratory complex at NIST's Boulder facility. This building 
has been undergoing renovations in stages for some years now 
and the continuation of this project is critical.
    As part of the Administration's effort to revitalize 
manufacturing, the budget proposes a $1 billion mandatory 
account to establish a National Network for Manufacturing 
Innovation, or NNMI, which aims to bring together companies, 
universities, and community colleges.
    Mr. Chairman, also included in this request are scientific 
programmatic initiatives that are tied to the overarching 
themes of this budget. In addition to the strong advanced 
manufacturing request, the cybersecurity request for protecting 
the Nation's cyber infrastructure is a top priority of the 
Administration. The initiative will enable NIST to strengthen 
its core cybersecurity R&D program that are the critical 
foundation upon which our ability to effectively engage with 
industry on cybersecurity is built.
    The NIST laboratory programs, along with its outreach 
efforts and standards development work, are dedicated to 
providing U.S. industry with the tools they need to innovate 
and compete and flourish in today's fierce global economy. And 
I look forward to working with you and the Members of the 
Committee.
    Thank you.
    [The prepared statement of Dr. Gallagher follows:]
    [GRAPHIC] [TIFF OMITTED] 80560.007
    
    [GRAPHIC] [TIFF OMITTED] 80560.008
    
    [GRAPHIC] [TIFF OMITTED] 80560.009
    
    [GRAPHIC] [TIFF OMITTED] 80560.010
    
    [GRAPHIC] [TIFF OMITTED] 80560.011
    
    [GRAPHIC] [TIFF OMITTED] 80560.012
    
    [GRAPHIC] [TIFF OMITTED] 80560.013
    
    [GRAPHIC] [TIFF OMITTED] 80560.014
    
    [GRAPHIC] [TIFF OMITTED] 80560.015
    
    [GRAPHIC] [TIFF OMITTED] 80560.016
    
    [GRAPHIC] [TIFF OMITTED] 80560.017
    
    [GRAPHIC] [TIFF OMITTED] 80560.018
    
    [GRAPHIC] [TIFF OMITTED] 80560.019
    
    Chairman Massie. I thank the witness for his testimony. 
Thank you, Dr. Gallagher.
    Reminding Members that the Committee rules limit 
questioning to five minutes, the Chair will at this point open 
the round of questions. And I will recognize myself for five 
minutes.
    So in your testimony you mentioned that there is $1 billion 
in a mandatory fund to be provided for the manufacturing 
initiatives. This is more than the annual budget for NIST, and 
so my question is where--how will these programs occur if the 
billion dollars is not provided and will this come from NIST, 
the DOE, the DOD? Where will this billion dollars come from?
    Dr. Gallagher. So thank you for the question. So the NNMI 
proposal is designed to provide a one-time investment, not a 
continuous investment, to create basically a research 
infrastructure for the country. The research infrastructure is 
designed actually to attract private sector, in other words, 
industry's R&D funding. We are trying to create a condition 
where a group of companies acting together can do something 
that they would not be willing to do on their own.
    The President's proposal would base the program at NIST. 
The reason for that is we have a very broad vision and set the 
context for NIST managing the program would be to enhance the 
competitiveness of the country to look at all of the different 
possible sectors as we ran the program. And as I envision it, 
the funding would be available, you know, for some finite 
period of time. It would go out as a set of grants to support 
the formation of these institutes.
    If that--that would require legislation, and I think this 
Committee would likely play a key role in developing that 
legislation. And your question is if that legislation does not 
occur, where does the funding come from? And I think what would 
happen, given the fact that these institutes seem to be filling 
a key need, is we would have to leverage existing programs to 
make that happen. And in fact, the Administration both last 
year using DOD funding, combined with some funding from other 
agencies--and the President announced his intent to do three 
more institutes this year--you are going to be leveraging 
existing programs at other agencies, and that is why the 
Defense Department and DOE have been identified.
    Chairman Massie. So--okay. I understand that the DOE and 
the DOD may provide some fund if the billion dollars is not 
provided for by Congress, but my follow-up question would be, 
will NIST contribute any discretionary funding in Fiscal Year 
2014 to those institutes?
    Dr. Gallagher. Well, I think it would seem natural that at 
some level we would, but again, without a specific program, it 
would have to be in the context of our existing programs. And 
so NIST participation in that context would probably have one 
of two flavors. It could be supporting the industrial R&D in 
measurement science, a core part of the NIST mission. That 
would be very attractive because this is designed to be the 
industry's concentration of R&D. I can't imagine who else NIST 
would want to work with.
    The other area, of course, is in the small and mid-sized 
business. So the NIST MEP program is designed to provide that 
outreach to small and mid-sized manufacturers, any institutes 
will play probably a magnet store role. And when you have that 
concentration of capability and large companies want to be 
located near that, supply chains will be located near those big 
companies. And I think there is a very natural role for the 
NIST MEP program to play a supporting role.
    So we think there would be a good match for NIST to 
participate with the centers.
    Chairman Massie. Okay. Thank you. I have another minute 
here. I would briefly like to ask you about the Smart Grid 
Interoperability Panel that was created in 2009. This is of 
particular interest to me. I am interested in energy and the 
efficient use of energy because for all the talk about 
alternative energy, it is a lot cheaper to save energy than it 
is to try and create it with alternate means.
    So I understand that the leadership of the Smart Grid 
Interoperability Panel has recently been handed over from NIST 
to a nonprofit organization driven by the private sector. Can 
you please explain in the brief time remaining what NIST's role 
is in the continued development of the so-called Smart Grid, 
and is NIST directly funding any Smart Grid activities in 
Fiscal Year 2014?
    Dr. Gallagher. So the quick answer, of course, is that NIST 
will remain very involved with the private sector-led effort. 
In the United States almost all standards efforts are led by 
the private sector. And the mandate given to NIST is twofold. 
One is to support those efforts and the other is to act as the 
go-between between the standards bodies and Federal needs so 
between the Energy Department, the energy regulators, and so 
forth. So we would need to be--remain involved. Our role will 
increasingly be technical, supplying the technical 
underpinnings of those standards, whether they are data 
communication standards or tested measurement standards. And we 
do anticipate continuing to provide support to that effort in 
'14 and beyond.
    Chairman Massie. Just quickly if you could answer quickly, 
how much money do you think will be spent in 2014 on the Smart 
Grid from NIST?
    Dr. Gallagher. Well, the amount that we have reallocated 
mostly from internal reprioritization is between $3 to $4 
million a year in both technical and coordination.
    Chairman Massie. Okay. Thank you very much. My time is 
expired.
    And I now recognize Ms. Wilson for five minutes.
    Ms. Wilson. Thank you, Mr. Chair.
    Dr. Gallagher, as you know, over the past several years our 
Nation has experienced historic and devastating natural 
disasters and numerous communities across America are still 
recovering and rebuilding. Hurricane Sandy was the Nation's 
costliest storm since Katrina, killing hundreds of people in 
its path and causing billions of dollars in damage. I am 
pleased to see that the budget request includes an additional 
$5 million to support NIST's work in the area of disaster 
resilience. Can you please describe this initiative and the 
activities NIST intends to undertake to improve the performance 
of buildings and infrastructure in the face of a disaster?
    Dr. Gallagher. Thank you. I believe you know this is a 
critical area, as you know, because of the potential impact it 
has on so many. The NIST role actually ties to the answer I 
just gave the Chairman, which is to support the standards 
setting. And in this case, for resiliency, what we are often 
talking about are standards that are written in a way that they 
become model codes. In the United States building structures, 
houses are regulated or managed if you will at the local level. 
Local building codes determine the standard of performance that 
we expect in our built infrastructure.
    And the way we ensure the built infrastructure is protected 
is twofold. One, we support, technically, a set of standards 
that can be adopted by local jurisdictions. They are called 
model codes. And two, we try to learn from experience. 
Unfortunately, in the case of disasters, we learn when 
something terrible has happened. And the NIST program is 
designed to work with local communities, to understand why 
certain types of damage was experienced in the face of a 
natural disaster, whether it is earthquake, wind, fire, and to 
basically reflect that new understanding by improving the 
building code standards.
    And this has become critically important, and the NIST 
effort is designed to approach this from a multi-hazard 
perspective so that we can quickly identify lessons learned, 
come to an understanding about how do we improve our built 
infrastructure, and then work with the buildings and code 
communities to make those improvements.
    Ms. Wilson. Thank you. One other question. I have a little 
bit of time. I understand that the budget includes a $25 
million increase to create Manufacturing Technology 
Acceleration Centers, MTACs, as part of the Manufacturing 
Extension Partnership, MEP program. As you know, small 
businesses are the top job creators and the lifeblood of our 
economy.
    In your testimony, you described how this new program would 
provide technology transition services to small manufacturers. 
Please elaborate on this new program. Specifically, how will 
these centers and their focus areas be selected? Also, how does 
this program build upon or relate to the existing supply chain 
and technology acceleration services being provided by the MEP 
centers?
    Dr. Gallagher. Thank you. So the Manufacturing Technology 
Acceleration Centers are a concept that is based on your 
observation, which is the small and mid-sized companies are 
where most of the employment growth and job growth occur, 
including manufacturing. It is also increasingly where the 
innovation is occurring. You know, new technologies and 
processes are being developed by small and mid-sized 
manufacturers, and large companies don't support those 
manufacturers in the way they did in the past. The relationship 
between the big OEM manufacturers in the supply chain has 
certainly changed over time, and that has resulted in changes 
for MEP.
    So what we are trying to do is, through a grant program, 
issue a grant to an organization or center that would develop 
services that are technical in nature and would be addressing a 
particular supply chain. And this would--this--whatever--these 
services, these--let's--let me give you an example. Let's say 
we wanted to support advanced aerospace companies that want to 
be suppliers into the aerospace industry. Well, if you want to 
be a supplier to aerospace, you are going to have to learn how 
to work in their environment, what their expectations are to 
meet their certification requirements and have the tools and 
quality assurance that you need to be an effective supplier in 
aerospace.
    What we would like to do is work with experts in the 
aerospace industry to develop services that small--that can be 
offered to small and mid-sized manufacturers that have this 
interest. So the MTAC centers would develop this content and it 
can be deployed through the entire national network of existing 
MEP centers. That is the idea behind MTAC. It is a supply chain 
focus, a technology focus for the MEP network.
    Ms. Wilson. Okay. Thank you.
    Chairman Massie. Thank you very much. The Chair now 
recognizes Mr. Schweikert from Arizona for five minutes.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Doctor, what you get to do is fascinating and some of the 
things you oversee, but I have always had first one global 
question. Think of everything you oversee, everything that is 
done at NIST. Can you walk me through some of the activities 
that could be found nowhere else, no university, no tech 
center, nowhere else that solely, solely exist at NIST?
    Dr. Gallagher. I sure can. And I thank you for the 
appreciation of the work. The most unique thing that you would 
find it NIST that you would find nowhere else are those 
activities that have been given to NIST and no one else. And 
they actually go to our core mission, and that is we define the 
basis of measurement for the United States----
    Mr. Schweikert. Mr. Chairman, Doctor--okay. And that is 
almost the constitutional carve-out.
    Dr. Gallagher. That is correct.
    Mr. Schweikert. But many of those measurements are 
actually, you know, MIT or those--will help build the standards 
but NIST will refine them and publish them?
    Dr. Gallagher. Well, in the case of the actual measurement 
standards, it is the research even underneath that is probably 
unique to NIST. And so if you look at areas where NIST is--
leads the world in its scientific capability, it tends to be in 
the areas where we have to be at the forefront because the 
basis of a measurement--let's say the definition of time--has 
to be more accurate than any application of that measurement. 
And so we tend to be at the forefront in those particular 
areas.
    Mr. Schweikert. Okay. Mr. Chairman--Doctor, so--okay. The 
measurement standards, what else?
    Dr. Gallagher. The other areas would be ones that have 
resulted from the standards coordination function. And they 
tend to be in these system areas, so cybersecurity. The nature 
of the cybersecurity research at NIST, because of the interface 
between both the Government needs and industry tend to be quite 
different than something you would find anywhere else.
    Mr. Schweikert. And Doctor, you are telling me I could not 
find that anywhere else in the Nation or in America?
    Dr. Gallagher. Well, it is always dangerous to say that 
because you are going to find cybersecurity research all over 
the world in fact, but the composition of the research program 
at NIST would look different. So it depends what you mean by 
overlap.
    Mr. Schweikert. And one of the natures of my question is so 
often we sort of have I guess the pop culture term is mission 
creep of NIST, you know, its core function of being, you know, 
the czar of time and measurements and it is almost a 
constitutional requirement. And yet we often ask you to do so 
many other things and reach into other activities. And I am--
the more I am, you know, here in Congress, starting to wonder 
should we actually be pushing you the other direction and focus 
on your core competence and stay out of some of the other 
affiliated activities?
    Dr. Gallagher. Well, I don't know if you would have to push 
us much because we try to stay close to our core competency as 
well. I have always believed that as an agency, mission focus 
is one of the most important things you maintain. Mission 
creep----
    Mr. Schweikert. But even some of the discussion we were 
just having with the supply chain, I can take you to a dozen 
universities around the country that literally have a mission 
statement that sounded exactly like you just described.
    Dr. Gallagher. But they don't have a mission to provide--in 
fact, a lot of their capability in fact is working with NIST, 
so----
    Mr. Schweikert. But they maintain some of the--but their 
mission statement, they are almost duplicative. Being from 
Arizona where you think about our level of aerospace----
    Dr. Gallagher. Right.
    Mr. Schweikert. --and technology and the some of the--at 
our engineering school at ASU and others where they are also 
helping with some of the supply chain technology and being able 
to, you know, become a provider--preferred providers and 
mechanics. It was amusing only because of the irony of, I 
think, I was hearing this on Tuesday from some folks from the 
engineering school saying almost the exact same language you 
just spoke.
    Dr. Gallagher. But in the case of the MTAC program it is 
not so much technical activity at the agency. It is a grant 
program that would in fact--maybe it would fund work in Arizona 
to provide--what we are providing is just the connection with 
all these--the hundreds of thousands of manufacturers through--
--
    Mr. Schweikert. And Mr. Chairman--Doctor, you don't believe 
those relationships, those contacts happen in dozens of other 
functions whether it be associations, that thing called the 
Internet?
    Dr. Gallagher. Well, I certainly believe that there is 
many--I do believe there are many ways of providing that and 
one of them is the NIST program to provide that outreach by 
partnering with the States.
    Mr. Schweikert. Okay.
    Dr. Gallagher. You are right, that is not unique.
    Mr. Schweikert. And I know it is always uncomfortable 
having actually run a government agency at one time where we 
are getting pulled because we, you know, our available talent 
and getting pulled away from our core mission, and particularly 
in a world with budget restraint and lots of talent and the 
ability to share it and communicate it, it is something I am 
going to continue to try to understand better in NIST, and you 
may see me being a very aggressive advocate of support and 
making sure you have the resources on your core and being very 
concerned about moving away from that.
    And with that, Mr. Chairman, I yield back.
    Chairman Massie. Now, we are in the second round of 
questioning and to start again I will yield myself five 
minutes.
    Dr. Gallagher, one of the more interesting things that I 
witnessed at--during my trip to NIST were the user facilities, 
or the user centers, where outside researchers or even 
commercial institutions could come and use your facilities, and 
some of them are very unique such as the nuclear reactor that 
provides a stream of neutrons to bombard things to give us 
visibility into the invisible and also the micromachining tools 
that use ion beams. These tools are very expensive and hard for 
other people to acquire, and so I sort of like the library--
type model that you have there where outside parties can come 
and use those.
    Of course, one measurement of whether those tools are the 
right tools to provide is whether the usage level of those. And 
I was encouraged to hear that you are somewhat oversubscribed 
for those tools. So my question is in trying to offset the cost 
for those, there are fees charged to commercial entities. And 
how close do those fees come to providing for the cost of those 
tools and how could you get closer to break-even? I am almost 
certain it doesn't break-even, but how could you come closer to 
breakeven? Could you--should you maybe raise the price on those 
if they are oversubscribed? Thank you.
    Dr. Gallagher. So in the case of national user facilities 
in the United States, there are two types of cost recovery that 
can be done. One is federal--supporting federally funded 
research. And both of the facilities you identified 
predominantly are used by researchers that are funded by other 
Federal agencies doing the work. And the long-standing U.S. 
position there has been rather than charge one agency to pay 
for the services at another through a user fee to basically--it 
is the steward-partner model. The stewarding agency that runs 
the facility operates the cost and provides the beam time on 
purely a merit basis, on the quality of the proposal without 
charging a fee. And it has been found over a long period of 
time that that results in the decisions being based on the best 
science for this limited capability rather than the capacity to 
pay.
    In the case of company use, when a company is going to use 
a unique capability like this for their own purposes and 
capture the data and not publish it--in other words, there is 
no public benefit--we charge full cost recovery, including the 
amortization of the facility. And I think the break-even or not 
just depends on, you know, the fraction of work that is being 
done proprietary, which tends not to be exceedingly high in 
these cases. And part of that is by design. These cutting-edge 
tools tend to be used most often in the precompetitive realm. 
So----
    Chairman Massie. So maybe you could price them at their 
value instead of at their cost and use some of the--if there is 
a differential, use some of the extra money to offset the 
research costs.
    Dr. Gallagher. Well, the cost recovery rules are in OMB's 
Circular A-130. I am going to get that wrong, but in one of the 
OMB circulars. And there are in fact two ways to recover cost. 
One is by cost recovery, full cost, and the other is by market 
value. The problem you run into with these unique facilities is 
how do you determine the market value?
    Chairman Massie. Right. Well, if it is oversubscribed, then 
maybe it is underpriced. But I hear your point that some of the 
subscriptions are from other research labs, not from commercial 
entities.
    Dr. Gallagher. Well, again, from a pure science 
perspective, we like oversubscription because it means that the 
selection committees are discriminating and really selecting 
the best of the best. You actually--most grant programs like to 
see that. So happy to talk to you more----
    Chairman Massie. Okay.
    Dr. Gallagher. --about that if----
    Chairman Massie. Thank you. Thank you very much. That is 
very sufficient.
    So in the first round of questions we talked about the 
Manufacturing Technology Acceleration Centers and how that is 
going to work through the Manufacturing Extension Partnership 
program. So my question would be there is $25 million in the 
budget to do this new manufacturing program. If that $25 
million is not provided, do you anticipate using funds from the 
MEP program to work with the MTAC program?
    Dr. Gallagher. So let me try to clarify. The MTAC program 
is part of MEP. It is a name we gave to basically grants that 
are developing content for the MEP rather than the grants that 
go to the centers that are delivering services. So it is 
designed to augment what MEP does by giving it technology 
services that have been developed by that sector. So it is 
really part of the same program.
    Chairman Massie. I hate to be a pessimist but if the 
funding for the MEP program is the same this year as it was 
last year, will you be able to fund the expansion of its role 
into the MTAC program using existing MEP funds at all?
    Dr. Gallagher. Not very much. So the--most of the funding 
for the MEP goes to the existing centers, so the capacity to 
develop new content would be quite limited. Obviously, we try 
to do whatever we could working with private sector developers 
to come up with content, but it would be limited.
    Chairman Massie. Thank you. Thank you very much.
    And now I yield five minutes to the Ranking Member, Ms. 
Wilson. Ms. Wilson yields her time to Mr. Peters from 
California.
    Mr. Peters. Thank you very much, Mr. Chairman.
    And I had a question about the health IT, information 
technology. There was a $3 million initiative that you refer 
to, and as I understand, this would expand on the existing 
efforts in health IT at NIST and would advance work to develop 
standards and testing for the meaningful use of electronic 
health records. And I know meaningful use is a term from the 
ACA with some meaning. You are ultimately going to want to 
require interoperability between different systems, and I 
wanted to sort of see if you could maybe elaborate on the 
current efforts in interoperability and how the new initiative 
would help the healthcare professionals and hospitals as they 
are preparing to answer a lot of the open questions about how 
to implement the ACA.
    Dr. Gallagher. That is a great question and the NIST role 
has been to support the functioning of health information 
technology. And in the early phases, a lot of what our work was 
promoting the testing tools and validation tools that 
demonstrated meaningful use. And the idea was to drive the 
performance of these systems by making sure that they were put 
into practice by doctors and physicians. So showing that it 
could, you know, pull up prescription information and be 
disseminated back to the pharmacy and so forth.
    Increasingly, now, you are going from sort of stand-alone 
information technology to a very broad and diffuse system. So 
as the health IT program matures, interoperability across 
platforms is going to become a major driver, and that is the 
next phase of the health IT program. The request is to support 
the NIST effort to develop compliance tools and validation 
tools to test the code and function that industry is 
developing. It is actually not an augmentation of program. The 
NIST program to date has not received any base funding. It was 
actually fully supported by one-time Recovery Act funding that 
in fact expires the end of this year and a limited amount of 
reprogramming we were able to do from within the agency.
    Mr. Peters. So--and just to follow up and to clarify, one 
of the things that is exciting and happening a lot in San Diego 
is the development of wireless health, digital health. The 
opportunity say, for instance, to monitor a person's cardiac 
performance or their glucose levels from a remote location that 
might save money on things like office visits or emergency 
ambulance rides or emergency room stays. One of the things we 
are going to have to think about is how to make those systems 
mesh with these records systems. And I want to know kind of is 
that part of your effort or is that something you anticipate 
getting involved in?
    Dr. Gallagher. That is very much part of the effort both 
from the functionality and from the security and privacy 
aspects that are going to come with that kind of technology.
    Mr. Peters. Right. Well, I wish you the best. It is a lot 
of opportunity. I believe you can only cut doctors' pay so much 
and raise taxes so much. A lot of what innovation can provide 
is new and cheaper ways to accomplish the goals that really 
will reduce the healthcare costs and that will depend a lot, as 
you know, on the ability of NIST to set standards that everyone 
can work off of as they innovate. So I appreciate your being 
here today. Thank you.
    Dr. Gallagher. Thank you.
    Chairman Massie. I am now honored to recognize for five 
minutes the Chairman of the full Committee, Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Dr. Gallagher, first of all, thank you for your commitment 
to public service, which has extended over many years. That is 
rare, but admirable.
    I have a couple questions. The first is in Fiscal Year 2013 
and in Fiscal Year 2014 how much money do you anticipate will 
be spent by NIST in implementing the Administration's February 
Executive Order on cybersecurity?
    Dr. Gallagher. So that is--we haven't scraped up a separate 
budget account to track that closely----
    Chairman Smith. Actually, that was my next question. What 
accounts is it going to come from?
    Dr. Gallagher. It is going to come--it is largely 
leveraging our work in our cybersecurity division.
    Chairman Smith. If you don't know 2014, what about 2013?
    Dr. Gallagher. Roughly for this year----
    Chairman Smith. Yes.
    Dr. Gallagher. --which is sort of the primary scope of the 
Executive Order, it is about $3 million that we anticipate. 
That sounds amazingly small given the tasking that was in the 
Executive Order, but the magic sauce is that we really want 
industry to develop this framework. And so most of those costs 
are supporting the coordination and sort of pulling together 
all of the material coming in from all of these sectors and 
managing the discussions that will help pull the framework 
together.
    Chairman Smith. So you are going to try to leverage that $3 
million and increase it exponentially through the private 
sector?
    Dr. Gallagher. As far as we can.
    Chairman Smith. Okay. Gosh, you are right. That seems an 
awfully small amount. What about 2014, about the same, more? 
What would you expect?
    Dr. Gallagher. So I think that looking in the out-years I 
envision the framework that is being developed. It cannot be a 
one-time develop-and-stop. The technology we are talking about 
is too dynamic. What I really hope happens is something akin to 
Smart Grid where the--this--as we pull this together the first 
time, the private sector begins to continuously manage and 
fine-tune this framework. That will actually drive the NIST 
technical programs because that will result in questions about, 
you know, how do we address identity management or roots of 
trust or better cryptography or other forms of technical 
solutions that that industry will need.
    And that is actually reflected in our '14 request that $8 
million of R&D base is designed to support what is becoming a 
very stretched out technical capability at NIST.
    Chairman Smith. Okay. Thank you.
    Next question, different subject. In regard to these new 
manufacturing centers, what metrics would you recommend that we 
use to evaluate these programs?
    Dr. Gallagher. Well, the ultimate goal is a long-term one. 
It should increase the rate of innovation by the participating 
companies. This is about creating the modern equivalent of Bell 
Labs. You are trying to get a group of companies collaborating 
and sharing and leveraging each other to do what used to be 
done by large, vertically integrated monopolies. And you should 
see the same kind of innovation. In the short-term, what I hope 
you see is this incentivizes an increase in private sector 
investment in R&D. It pulls their investments upstream.
    Chairman Smith. But both regarding current programs and, as 
you said, the proposed augmented programs, how do you evaluate 
them? Are there any specific metrics, any specific data we 
ought to be looking for to gauge their success?
    Dr. Gallagher. Well, I mean so, you know, measuring 
technology's success is always a tricky thing. We have 
economists who try to study that because the ideas diffuse into 
different products. You can certainly look at rates of IP 
generation and patent filings. You can look at new company 
startups that are going to happen as a result of this. In some 
cases, one of the problems is that some of the most exciting 
things a company pulls in and they don't tell us about--in 
fact, sometimes we know the most exciting work is when they 
stop telling us about it--and in some cases you don't see the 
payoff until quite a bit later as you see new products and 
services going in.
    So I think from a measurement perspective, how do we 
measure success, it is going to have be a layered set of 
things: some early indicators that indicate that this is 
starting to be pulled together and then we are going to have to 
continue to monitor this for a long time to see some of the 
economic payoffs in markets and new products and services and 
so forth.
    Chairman Smith. Okay. Thank you, Dr. Gallagher.
    Thank you, Mr. Chairman.
    Chairman Massie. Thank you, Mr. Chairman.
    I now yield five minutes to Ranking Member, Ms. Wilson.
    Ms. Wilson. Thank you, Mr. Chair.
    Dr. Gallagher, in your testimony you mentioned the need to 
support the manufacture of emerging technologies, including 
biomanufacturing. Specifically, you discussed efforts that 
could help create new manufacturing paradigms for using cells 
as factories for fuel, pharmaceuticals and specialty chemicals. 
These efforts align with the White House's report, the National 
Bioeconomy Blueprint, a strategic plan to help the Nation 
realize the potential of the economic activity fueled by 
research and innovation in the bioeconomy.
    Would you please describe your efforts in biomanufacturing 
and how these activities will help the Nation attain the 
benefits of the bioeconomy?
    Dr. Gallagher. Thank you. I would be happy to. Of course, 
you know, the explosion of understanding in bioscience is 
probably the most dramatic scientific development in my career. 
It has been a game-changer. The NIST role is very simple. It is 
our core mission. It is to advance the measurement science in 
biotechnology and particularly the measurement science that 
controls our--the adoption of this technology. And what I think 
it means and what the focus of our request is really in two 
areas. One is the production using biology to produce things is 
becoming mainstream. It is becoming a manufacturing process. 
And we do not have the process measurement tools to control and 
reproducibly, repeatedly, reliably produce high-quality 
materials. If we can't do that, these things will never achieve 
the scale and the cost reduction of market to make it a viable 
production technology.
    And the second area where measurements are playing a major 
role is in supporting the demonstration of safety and efficacy. 
And you see this no more clearly in the pharmaceutical area 
where the pace of technological development, our ability to, 
let's say, make a new vaccine is much, much faster now than our 
capacity to regulate it and demonstrate its safety and 
efficacy. And you see this increasing mismatch. And one of the 
things we talk about very closely with FDA and others is can we 
provide a rich measurement so we can understand the biomolecule 
that we have produced in a way that would really facilitate a 
rapid and effective, you know, protection of the public as 
well.
    So both in the regulation and the production we think our--
the maturity of measurement science is one of the limiting 
steps, and that would be the area that NIST would focus in.
    Ms. Wilson. That is fantastic. My other question, as part 
of the budget request, you are proposing $20 million for the 
creation of four NIST Centers of Excellence. The budget request 
describes these centers as ``interdisciplinary environments 
where NIST academic and industry researchers will collaborate 
on basic and applied research focused on innovations and 
measurement science and new technology development.'' 
Certainly, the success of NIST current research collaborations 
with the University of Colorado and the University of Maryland 
is in some part due to the presence of NIST and its scientists 
in these geographic locations. How is NIST planning to ensure 
the active and full participation of its scientists in these 
proposed Centers of Excellence? And what research areas do you 
envision these centers focusing on? And do you plan to put one 
in Miami?
    Dr. Gallagher. We hope Miami submits a great proposal. So 
we would like to do this competitively, and the Centers of 
Excellence program is very simple. It is designed to facilitate 
a partnership to expand the effectiveness of NIST's mission. It 
is kind of a selfish initiative. This is about making NIST do 
its core mission better. The example you gave about JILA at the 
University of Colorado is a great example. For more than 50 
years, we have been able to sustain with NIST staff working 
right alongside top academic researchers a state-of-the-art 
effort in research that is essential to our core mission: 
producing better clocks and understanding time and some of the 
quantum measurement. It has allowed us to be at the forefront.
    And I don't think that example is unique. I think that 
there are many cases where rather than NIST simply going into 
its labs and doing it by itself, by working with others in 
partnership, we actually achieve our mission better.
    There is a lot of competition for what the area--the best 
area can be and so we are going to both compete this internally 
to identify the areas of--that offer the most, and that is how 
we involve our scientists--offer the most engagement and 
benefit. It could be biosciences, which is a big growth area 
for NIST. It could be an environment where we are working much 
closer with industry. And then once we have identified the 
technical area where we think we get the most mission impact, 
we are going to do an open competition where universities and 
other stakeholders can propose and give us their ideas for how 
a partnership would be most effective. And so we certainly hope 
Miami is going to be a participant or any other area be a 
participant in that competitive process.
    Ms. Wilson. Thank you. That is exciting.
    Chairman Massie. Thank you very much.
    I now yield five minutes to Mr. Hultgren from Illinois.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you so much for being here. A couple questions.
    First, in the Fiscal Year 2014 NIST budget request, more 
than half of the proposed increase in funding would be focused 
on advanced manufacturing efforts. While recognizing 
manufacturing is very important to our Nation and economy, a 
lot of this new funding is focused in areas of technology and 
knowledge transfer. I am concerned that the core long-term 
research that supports manufacturing is going to be left behind 
as the Institute advances initiatives that provide more short-
term band aids. When the infusion of cash has gone out the 
door, are you confident we will have not lost focus on longer-
term needs in manufacturing?
    Dr. Gallagher. So I may not understand the concern because 
the majority of the NIST funding is in fact in long-term areas. 
It is core research in measurement science that is related to 
the highest growth, in other words, the newest technology areas 
in advanced manufacturing. So it is enhancing our capacity to 
support the metrology or measurement science needed for nano--
production of nano materials or biomaterials or for some of the 
standards support we are going to have to do for some of the 
advanced system integration and smart manufacturing and smart--
so, you know, it looks like a big refocus for NIST into 
manufacturing, but remember, NIST, since 1901, has sort of been 
industry's national lab. We--the truth of the matter is almost 
all of NIST has been related to manufacturing in one way or 
another for its entire history.
    And so this program is really focused on developing the 
core capacity in our laboratory program where very much part of 
our core mission so that we can support what is the fastest-
moving areas of industry.
    Mr. Hultgren. Yes, my--I am a broken record here. Fighting 
for research and fighting for what only we can do and what 
other--private sector can't do, the free market can't do and 
where I feel like when we have got extra resources, I think it 
is great to get more into the application and into the 
applying. My focus is to make sure that we are not taking money 
away that should go to research when that money is so limited.
    Let me go on to another question. How does NIST balance 
short-term, low-risk, low-reward research projects versus long-
term, high-risk, high-reward research projects when making 
funding decisions? And just kind of a follow-up on that--or a 
couple of follow-ups--how does NIST determine the proportion of 
basic research versus applied research projects when allocating 
funding? And I wonder is there a balance that, as Director, you 
look to maintain across your activities between the more 
fundamental versus the more applied type of work that NIST 
funds?
    Dr. Gallagher. So the lens I always use for those decisions 
is our mission effectiveness. And that tends to mean that a 
large proportion of our work is actually in very basic areas. 
And that actually touches on the point you raised, which is 
uniqueness. That is the role that we can play that others will 
not play. Industry is taken to very short-cycle research. So it 
would not make sense for NIST to be heavily involved in very 
applied research or development.
    The mix I think comes from relevance. It wouldn't do any 
good for NIST to have this beautiful academic research that was 
irrelevant to application and industry, and so the balance 
tends to come exclusively from making sure we have the capacity 
to do that cutting-edge research, to stay ahead of the 
measurement science or this very core NIST mission, but also 
have an understanding of how that measurement science is 
applied in real world technology so that the translation is 
effective.
    Mr. Hultgren. My encouragement in that is just to--I know 
that is an always-changing balance, but especially when 
resources are tight to have it focused on that basic research 
and research again that no one else can do. And then the 
applied research is always an option when there is additional 
resources, but we have got to make sure that we have got that 
core mission in place.
    Let me move on still. My time is limited. But wondering 
what NIST is doing to measure and evaluate the economic impact 
of its programs.
    Dr. Gallagher. So we have a program that does--in fact has 
developed sort of one of the leading methodologies for looking 
at economic impact of its work. As you--as I was pointing out 
earlier, that is a complicated business, but we will routinely 
take several of our programs a year and then do a retrospective 
economic analysis to ascertain the economic payoff, the 
economic benefit. And of course with such a diverse agency, 
these tend to be rather diverse studies in terms of how we do 
that.
    We are--the other way we do that is by industry validation. 
The Visiting Committee on Advanced Technology, our leading 
advisory committee, is made up predominantly of chief 
technology officers at that level from companies, and we 
routinely ask them to make sure that our work is relevant to 
them. That is not economic study but it is a relevancy 
assessment if you will.
    Mr. Hultgren. Okay. I just have a few seconds left, but if 
I can, I got here a little bit late and just would love to get 
your thoughts. Brain science is something very interesting to 
me, very concerning to me of some of the diseases. How do we 
improve the understanding and treatment of autism, Alzheimer's, 
and other neurological disorders? And what role do you see NIST 
playing in standards and technology surrounding various drug 
compounds or other therapeutics that could help us improve 
people's lives in the long run?
    Dr. Gallagher. Well, I appreciate the question. It--you 
know, and this is going to sound like a broken record, too. I 
think our role is actually in the measurement science piece of 
this. In fact, we are already getting a lot of demand from both 
universities, companies, and other Federal agencies to support 
some of the very difficult, very challenging measurements 
associated with neurological disease, understanding brain 
function, measuring brain function, measuring misfolded 
proteins, understanding--these are areas that--where the--our 
ability to measure, particularly measure in living beings and 
not under laboratory conditions is very immature. And so that 
is one of the areas--that is why biosciences has come up as an 
area where we have really got to come up to speed in supporting 
those advances in measurement science.
    Mr. Hultgren. I agree. Thank you.
    Thank you, Mr. Chairman. I appreciate your indulgence. I 
yield back.
    Chairman Massie. Thank you very much for your questions.
    We are going to do at least a third round of questions and 
I will begin by yielding myself another five minutes.
    My first question would be--and I want to ask a series of 
short questions and I don't require anything but short answers. 
When you talk about cybersecurity funding at NIST, what portion 
of that should be public domain and what portion of that should 
be classified? And is NIST really the right place to be doing 
cybersecurity research or should we be doing it in a more 
closed environment?
    Dr. Gallagher. So NIST is the place where you would want to 
put the non-classified work. You know, you have got to have 
capability to develop--the capability to protect in commercial 
technology. So if all the research is classified, then the 
translation to practice and putting it into industry when it is 
global markets is actually hampered. And so the NIST role is 
almost all unclassified.
    Chairman Massie. Okay. That is a great lead-in to my next 
question, which is it seems like the rates of technology 
transfer are higher, and I am asking this question because this 
might be one of the metrics of success at an institution such 
as NIST. But it seems like the rates of technology transfer are 
higher at universities, particularly research universities like 
MIT or Caltech than they are at NIST. And what could you do to 
improve the rates of technology transfer at NIST?
    Dr. Gallagher. So we are actually very actively trying to 
increase rates of technology transfer at NIST by targeting our 
SBIR program, making it more focused, by promoting tech 
transfer by our research staff and making sure that this is a 
valued activity. But I want to emphasize, you know, the role of 
NIST is to drive things into practice, but it will not look the 
same way that measuring entrepreneurial startups would look for 
a major university. We don't--you know, our role is not to have 
Federal employees go off and start companies and then come back 
and do some of those activities.
    So what we are trying to do is work with all the--in fact, 
all of the Federal agencies to broaden and develop a more 
nuanced understanding of tech transfer means. And so NIST has 
been working with OMB and other Federal agencies to--and we 
would like to actually work with you on that as well.
    Chairman Massie. So you keep leading me to my next 
question. You must be reading my mind or you have a camera up 
here. My next question concerns SBIRs and I have some 
experience in my private background of working with SBIRs. And 
my question to you would be, as Congress here, we sort of 
dictate how much extramural and intramural spending that you 
can do, and as far as the SBIR program goes, I would like your 
personal opinion on would you rather see more funding toward 
SBIRs and less on your, for instance, intramural programs? Or 
would you rather see it the other way around? Or have we, as 
Congressmen, achieved the perfect balance in giving you that 
money and dictating how much is intramural and extramural?
    Dr. Gallagher. That is one of those eye-of-the-beholder 
questions. It depends. So clearly, we like the--and NIST is 
predominantly intramural, and our SBIR program is consequently 
quite small. I think we are fairly close to the right answer. I 
haven't had a major desire to see it move one way or the other. 
I am of the belief, though, that we can do much more to make 
sure that the SBIR funds that are allocated are much more 
effective. And that has been the big improvement we have been 
focused on is you need to step back and strategically look at 
that investment. It is quite unique. It is one of the only 
investments we make into innovative, small, startup companies. 
And I would like to see it punch its weight more.
    Chairman Massie. And my final question in this series is 
NIST has impressive rates of employee and staff retention. It 
seems like when people go to NIST, they like it and they don't 
leave. And that allows you to do long-term projects that would 
be harder to do with a lot of turnover. On the other hand, 
university--the university model is that you kick them out of 
the nest and you don't want too much retention because then you 
kind of reach this stasis. So how do you avoid getting into a 
rut at NIST when you have such great employee and staff 
retention?
    Dr. Gallagher. Yes, you are exactly right. For an agency 
that has to have long-term research roots, the stability is in 
fact very desirable. It is actually quite competitive, and so 
any other science--you also want churn. You want this lifeblood 
of new, young people coming right out of school with fresh 
ideas. And so it has been very important for us to have a very 
aggressive postdoc program, to have guest researcher programs, 
and to have this fluidity of new ideas and engagement while 
having a core cadre of senior scientists that in fact are 
there. That is a perpetual management challenge that we manage 
all the time but it is very important.
    Chairman Massie. Thank you, Dr. Gallagher.
    And I yield five minutes to Ranking Member, Ms. Wilson.
    Ms. Wilson. Thank you, Chair Massie.
    Dr. Gallagher, one of my colleagues expressed concern about 
``mission creep'' at NIST. However, as I recall the mission of 
NIST, it is to promote U.S. innovation and industrial 
competitiveness by advancing measurement science standards and 
technology in ways that enhance economic security and improve 
our quality of life. I believe that this is a broad mission and 
I don't believe the budget request is pushing NIST outside of 
its core competencies. Would you agree with that? And do you 
believe the budget request reflects the mission of NIST?
    Dr. Gallagher. Yes, I would in the strongest possible terms 
agree. I think NIST has been true to its mission. Its mission 
is broad. It includes not only core basic research and 
measurement science, but supports the small to mid-sized 
manufacturers, includes the primary responsibility for tech 
transfer regulation in the United States. I think--and we hold 
true to that. The challenge we always face is given that broad 
mission with limited resources, how do you set effective 
priorities? But I believe wholeheartedly that one of the 
secrets of success to NIST, you know, now well over 110 years 
old, is this: it has been true to its mission from the 
beginning.
    Ms. Wilson. Okay. Just another question. The release of the 
National Research Council's Forensic Science Report in 2009, 
which concluded that forensic system--science system in this 
country has serious problems served as a wakeup call and has 
prompted discussions throughout the Federal Government and the 
stakeholder community about how best to improve forensic 
science research and practice. I am pleased that the budget 
request highlights your efforts in forensic science. Can you 
tell us more about what activities NIST intends to undertake 
related to forensic science in Fiscal Year 2014 and how NIST is 
partnering with the Department of Justice to improve forensic 
science?
    Dr. Gallagher. Thank you. I--you know, NIST--it is 
interesting. NIST has actually been involved with forensic 
science for most of its history. NIST scientists actually 
predated the establishment of the FBI crime lab and helped work 
to establish it. NIST worked on the Lindenberg case. So we have 
actually had a long record here, and the role in fact is our 
core mission. It is to provide the measurement science 
underpinnings for forensic measurement.
    The best example today is DNA, which was held up by the 
Academy as one of the very effective types of forensic 
measurement. The NIST staff work--you know, had worked with the 
community to define the core measurement methodology and sort 
of the protocols and standards that are used by DNA crime labs, 
the--and make that technique so reliable.
    So realizing that that was a model, the announcement we 
have just had, the working arrangement between NIST and the 
Department of Justice to strengthen that. And basically, it 
will be formalized through a joint commission that will be co-
chaired by the Justice Department and NIST. It will bring 
together a broad community of practice from scientists and 
laboratory officials to criminal prosecutors, defense attorneys 
and judges. And the goal is twofold. At NIST, our 
responsibility is to look at areas where the measurement 
science underpinnings of a forensic technique are not well 
established. And those tend to be what you might consider a 
low-tech measurement. How do you compare--what is the 
reliability of comparing a tire imprint left at a crime scene 
with a tire and how unique is that measurement and how degraded 
before you can't say anything about it? It could be in blood 
serum, it could be in chemical measurements and so forth.
    So our job will be to do the measurement science and then 
work with the community of practice to turn that into the types 
of protocols, standards for laboratories, maybe certification 
requirements for the expertise of the personnel that do those 
measurements. And those can be adopted at the state and local 
level and then the Justice Department will decide whether they 
will be applicable for Federal crime labs under their 
jurisdiction.
    Ms. Wilson. Just let me--I just need to make a comment. 
Every second, this is so exciting. And I know that the people 
who work with you and collaborate with you and the people at 
NIST and--have the most exciting lives in all of this research. 
This is just amazing. And thank you so much for all that you do 
for this Nation. Thank you.
    Chairman Massie. Thank you, Ms. Wilson.
    I would like to thank Dr. Gallagher for his valuable 
testimony today and for having so much stamina undergoing three 
rounds of questioning being the only witness here before us. I 
thought your answers were excellent. And I also want to thank 
you and your staff for hosting our visit to NIST a couple weeks 
ago.
    I would like to thank the Members for their questions and 
remind them that the record will remain open for two weeks for 
additional comments and written questions from Members.
    Dr. Gallagher is excused and this hearing is adjourned. 
Thank you.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
